Network Distribution Center Phase 1                                                               EN-MA-10-001
 Activation




November 6, 2009

JORDAN M. SMALL
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Management Advisory Report – Network Distribution Center Phase 1
         Activation (Report Number EN-MA-10-001)

This report presents the results of our review of the Network Distribution Center (NDC)
Phase 1 activation (Project Number 09XG022EN000). This review responds to a
request from the vice president, Network Operations, and is the first in a series of
reviews planned to evaluate the NDC activation. Our objectives were to assess the
planning, execution, and impacts associated with Phase 1 of the NDC activation and
identify key issues and risks. This review addresses strategic and operational risks.
See Appendix A for additional information about this audit.

Conclusion

The NDC Phase 1 activation planning process appeared adequate, the execution of the
plan generally went well, and the impact on operations were mostly positive. However,
management could enhance the planning process by completing customer supplier
agreements1 (CSA) and the Article 12 employee excessing process earlier in the
activation and including specific milestones in the Readiness Assessment Checklist. In
addition, we identified key issues and risks associated with the activation that the U.S.
Postal Service should address during activation of Phases 2 through 4.

Planning for NDC Phase 1 Activation

The NDC Phase 1 planning process appeared adequate; however, management should
have completed CSAs and the Article 12 process earlier in the activation. In addition,
the Readiness Assessment Checklists provided to each site before activation could
have incorporated specific milestones to ensure items on the checklist were completed
and reviewed timely. There was no established guidance for this initiative, as it was a
unique project the Postal Service implemented quickly. In addition, management
acknowledged they relied on the Business Service Network (BSN) group to coordinate
CSAs with mailers. During our review, management took action to address the CSA
issues and involve the mailers in the solution process by establishing a Mailer Technical
Advisory Committee (MTAC) workgroup.2 Timely implementation of the CSAs is
important in achieving projected savings through workhour and transportation
reductions. See Appendix B for our detailed analysis of this topic.

1
  CSA is an agreement between the Postal Service and the mailer for developing customer requirements that meet
service and quality expectations
2
  MTAC Workgroup #131, Communicating Network Distribution Center (NDC) Origin Separation Requirements.


                                                       1
Network Distribution Center Phase 1                                                                      EN-MA-10-001
 Activation



We recommend the vice president, Network Operations:

1. Identify and apply best practice for encouraging mailer participation in customer
   supplier agreements and reducing the duration of the Article 12 process.

2. Require field management to develop and submit specific milestones in the
   Readiness Assessment Checklist to the network distribution center activation team
   for validation before the scheduled activation date.

Execution of NDC Phase 1 Activation

Execution of the NDC Phase 1 activation went well with only minor issues. Activation of
Phase 1 began on May 18, 2009, rather than the initially planned mid-April date. In mid-
June, management accelerated the activation and completed it on July 17, 2009, rather
than the original completion date of August 7, 2009. Management used an incremental
approach3 with leadership at all levels engaged in the activation. Management
exercised agility when addressing issues and was effective in making required changes.
See Appendix B for our detailed analysis of this topic.

Impacts Associated with NDC Phase 1 Activation

Management generally complied with instructions for the Phase 1 activation and as a
result, operational impacts were mostly positive. Specifically, management
implemented live loads and unloads of all trailers, increased trailer utilization,
streamlined transportation trips, reduced some mail processing workhours, and
improved Package Service performance. However, as of July 31, 2009, standby hours4
as a percentage of mail processing workhours remained high at one Phase 1 NDC.
Costs also exceeded savings for highway contract route (HCR) adjustments; however,
projected annualized cost avoidance from cancelling rail contracts offset the additional
HCR costs. Additionally, management stated they would not fully realize anticipated
benefits from workhour savings and transportation trip cancellations for Phase 1 until
about 2 months after completing Phase 1. As a result, we plan to evaluate
transportation and workhour costs and savings for Phase 1 NDCs in a subsequent
review. See Appendix B for our detailed analysis of this topic.




3
  Incremental approach represents optimizing the performance of the mail processing and transportation
infrastructure in phases rather than in its entirety. For example, the long-term vision includes relocating Surface
Transfer Centers (STC) operations to NDC operations.
4
  Handbook M-32, Management Operating Data System, March 2009, Chapter 4-4.4.4, states that standby time
records employee paid hours that cannot be used for productive work activity.


                                                           2
Network Distribution Center Phase 1                                                                   EN-MA-10-001
 Activation


The Postal Accountability and Enhancement Act (The Postal Act of 2006), P.L. 109-435,
Title II dated December 20, 2006, requires the Postal Service to report to Congress
annually
         . . .actions taken to identify any excess capacity within its processing,
         transportation, and distribution networks and implement savings
         through realignment or consolidation of facilities including overall
         estimated costs and cost savings.

Issues and Risks Associated with NDC Phase 1 Activation

Management noted that six of the 12 risks identified in the U.S. Postal Service Office of
Inspector General (OIG) Time-Definite Surface Network (TDSN) Risk Mitigation report5
are relevant to the NDC initiative and should be considered during activation of Phases
2 through 4. These risks are as follows: political risks, cost factor analysis, aggressive
implementation date, revenue at risk, stakeholder interest (communications), and
internal control and quality assurance. We identified four additional risks during NDC
Phase 1 activation that management should also consider during subsequent
activations. These risks are as follows: delays in obtaining CSAs, this network
streamlining initiative may not provide the savings anticipated, the loss of goodwill, and
coordination with other initiatives. See Appendix B for our detailed analysis of this topic.

Postal Service Actions – Management initiated action to mitigate some risks identified in
the TDSN report which apply to the NDC initiative. These include:

          Aggressive Implementation Date – Mitigating actions included activating the NDC
           in phases, keeping the activation schedule flexible, and applying significant
           resources to planning and oversight during activation.

          Stakeholder Interest – Mitigating actions included encouraging mailer
           participation in the solution process and maintaining transparency in the NDC
           activation process.

In addition, as part of lessons learned from Phase 1, management is emphasizing at
Phases 2 through 4 kickoff meetings the need to initiate CSAs as soon as possible in
the activation process.

We recommend the vice president, Network Operations:

3. Develop a written plan to address identified risks during implementation of Network
   Distribution Center Phases 2 through 4 activation.




5
    Report Number EN-MA-09-001, March 20, 2009. Six of the 12 risks apply to any network realignment initiative.


                                                           3
Network Distribution Center Phase 1                                          EN-MA-10-001
 Activation



Management’s Comments

Management agreed with the first part of recommendation 1, to identify and apply best
practice for encouraging mailer participation in customer supplier agreements.
Management took action during the audit to establish an MTAC workgroup to
communicate with mailers origin separation requirements to support network
reengineering. The workgroup is scheduled for completion in February 2010.

Management agreed in principle with the second part of recommendation 1, to apply
best practices for reducing the duration of the Article 12 process. Management
acknowledged inefficiencies in the Article 12 process and stated a Lean Six Sigma
project has been initiated to identify opportunities to improve the process. Management
stated that the Article 12 process is part of the collective bargaining agreements, and
therefore, Article 12 recommendations should be directed to the Vice president, Labor
Relations.

Management agreed with recommendation 2 and stated that for Phase 4, they
conducted preactivation meetings with lessons learned and best practices, and set
milestones for specific items related to the checklist.

Management agreed with recommendation 3 and developed strategies during the
Phase 1 NDC Activation to mitigate identified risks in the remaining phases.
Management’s comments, in their entirety, are included in Appendix G.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. The OIG considers recommendations 1 and 3 significant. Recommendation 1,
as it relates to CSAs, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective action has been completed. This
recommendation should not be closed in the Postal Service’s follow-up tracking system
until the OIG provides written confirmation that the recommendation can be closed. The
OIG will address the Article 12 part of recommendation 1 with Labor Relations in a
future audit specifically on this subject. Recommendation 3 will be closed in the follow-
up tracking system with the issuance of this report.




                                            4
Network Distribution Center Phase 1                                          EN-MA-10-001
 Activation



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Douglas A. Tulino
    Christopher L. Alexander
    Luke T. Grossman
    Tiffany Hagaman
    Frank Neri
    Bill Harris




                                            5
Network Distribution Center Phase 1                                                                         EN-MA-10-001
 Activation


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

A key Postal Service strategic objective is to optimize its processing and transportation
networks. The Postal Service’s 2009-2013 Vision 2013 Strategic Plan provides the
roadmap to create a flexible network that promises new gains in service, efficiency, and
customer value in the years ahead. In addition, the President’s Commission found the
Postal Service had more facilities than needed and recommended optimizing the
network by closing and consolidating unneeded processing centers. Further, the Postal
Act of 2006 required the Postal Service to—

      Provide a network plan that addresses the establishment of performance goals;

      Describe changes needed to its processing, transportation, and retail networks
       in order to meet those performance goals;

      Summarize its vision for rationalizing its infrastructure and workforce;

      Discuss policies governing re-employment within the agency and early retirement
       for employees who might be displaced as a result of network rationalization; and,

      Explain the future role of various alternative postal retail access channels.

In the 1970s, the Postal Service developed a bulk mail network of 21 bulk mail centers
(BMC) to support mail distribution and transportation for surface Parcel Post®,6
Standard Mail®,7 and Periodicals.8 With mailers entering more mail near final
destination, mail volume declining, and a changing mail mix, much of the mail the BMCs
previously processed has gone away. Over the past few years, the Postal Service has
evaluated various network design alternatives to streamline the BMC network:

        In 2006, the Postal Service introduced a plan to redesign its network around
         approximately 70 regional distribution centers (RDCs) that would perform bulk
         processing operations for all classes of mail, act as surface transfer centers
         (STCs), and become mailer entry points. However, because of the impact of the
         Postal Act of 2006, the approval of Phase 1 of the Flat Sequencing Systems
         (FSS) deployment, the 2007 rate change that introduced shape-based pricing,
         and the significant amount of capital investment required to implement the
         network, the Postal Service determined the RDC concept would not result in the
         planned benefits and halted the program.



6
  Parcel Post is mail that does not meet the mail processing category of letter-size mail or flat-size mail. It is usually
enclosed in a mailing container such as a carton.
7
  Standard Mail is a mail class that is not sent as First-Class Mail® or entered as Periodicals.
8
  Periodicals consist of magazines, newspapers, or other publications formed from printed sheets that are issued at
least four times a year from a known office of publication.


                                                             6
Network Distribution Center Phase 1                                                           EN-MA-10-001
 Activation


       In early 2007, the Postal Service began to evaluate another alternative and by
        mid 2007, the concept of an outsourced TDSN emerged. With this initiative, the
        Postal Service considered outsourcing some operations currently performed in
        BMCs and back filling BMCs with new FSS and other operations consolidated
        from nearby facilities. The Postal Service issued both a Request for Information
        and a draft Request for Proposal and received significant interest from the
        industry. However, because of the unprecedented decline in mail volume, which
        began in 2008 and the current economic environment, future volumes became
        nearly impossible to forecast. By late 2008, the Postal Service determined it was
        not the right time to outsource the BMC network.

       As it became evident the TDSN concept would not be feasible and still facing
        significant cost reduction targets and excess capacity, the Postal Service began
        developing an internal re-engineering effort focused on transforming BMCs into
        NDCs. NDCs would consolidate the processing and dispatching of mail to
        achieve economies of scale and greater operational efficiency and reduce
        workhours and transportation. In May 2009, the Postal Service began Phase 1
        activation of the NDC concept.9

                               Chart 1. History of BMC Initiatives




The core principle of the NDC concept is to fill containers and trucks early in the
network and to dispatch them as deep into the network as possible. The Postal Service


9
 On July 21, 2009, the Deputy Postmaster General announced the Postal Service would rename all BMCs as NDCs,
effective August 1, 2009.


                                                     7
Network Distribution Center Phase 1                                              EN-MA-10-001
 Activation


can achieve this objective by using three tiers of consolidation opportunity. The NDC’s
level of responsibility depends on its network tier.

The new network, when fully implemented, will include the following:

       Eleven Tier 1 Sites – Will only process destinating and originating turn-around
        Standard Mail, Periodicals, and Package Services for the Tier 1 service area. In
        the longer term, Tier 1 sites may also have STC containerization and dispatch
        functions. All mail for destinations outside of the Tier 1 service area will be sent
        to Tier 2 sites for processing and dispatch.

       Six Tier 2 Sites – Will include Tier 1 responsibilities and also process all of the
        outgoing mail from Tier 1 sites. Tier 2 sites may also perform single piece
        distribution of letters and flats and containerize and dispatch First-Class Mail and
        Priority Mail.

       Four Tier 3 Sites – Will include Tier 1 and Tier 2 responsibilities and be the
        gateway sites for cross docking mail from Tier 2 sites when the NDC is unable to
        send full truckloads to the network.
Appendix C provides a diagram of the NDC network flow and a description of each tier’s
responsibilities.

NDC Phase 1 activation took place in the northeast region and included the Northeast,
New York Metro, and Eastern Areas. Three BMCs were impacted. The Philadelphia
and Springfield BMCs became Tier 1 NDCs while the New Jersey BMC became a Tier
2 NDC. Forty-two processing and distribution centers/facilities (P&DC/P&DF) that
transport mail to these three NDCs were impacted in the Phase 1 activation.
Appendix D shows the location of the three NDCs and lists the P&DCs that transport
mail to each under the NDC concept.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to—

       Assess the planning, execution, and impacts associated with Phase 1 of the
        NDC activation.

       Identify key issues and risks.

To accomplish this review, we:

       Identified concerns and risks from previous network realignment initiatives.

       Reviewed Government Accountability Office and OIG reports regarding network
        realignment initiatives.



                                              8
Network Distribution Center Phase 1                                               EN-MA-10-001
 Activation


       Reviewed NDC planning and communication documentations.

       Interviewed Postal Service Headquarters and field office officials.

       Observed NDC operations at selected Phase 1 facilities.

       Participated in selected daily NDC Phase 1 activation team meetings.

       Participated in selected MTAC meetings.

       Determined risks and concerns related to this initiative.

We conducted this review from June through November 2009 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management on September 15, 2009,
and included their comments where appropriate.

PRIOR AUDIT COVERAGE

                        Report
Report Title                          Final Report Date                Report Results
                        Number
Time-Definite        EN-MA-09-001     March 20, 2009        The report acknowledged that the
Surface                                                     concept of contracting out BMC
Network Risk                                                operations may have merit; however,
Mitigation                                                  we identified 12 risks associated with
                                                            the BMC outsourcing initiative. We
                                                            recommended the Postal Service
                                                            develop a written plan to address risks
                                                            and concerns before moving forward
                                                            with the TDSN initiative. Management
                                                            explained they were no longer
                                                            pursuing the outsourcing of BMC
                                                            work. Instead of outsourcing,
                                                            management would look at re-
                                                            engineering product flows through
                                                            their current infrastructure.
                                                            Management agreed to take steps to
                                                            mitigate those risks that are relevant to
                                                            the new direction.




                                              9
Network Distribution Center Phase 1                                            EN-MA-10-001
 Activation



                        Report
Report Title                          Final Report Date             Report Results
                        Number
Bulk Mail           EN-WP-07-001      April 25, 2007      This report identified 10 concerns and
Center                                                    risks associated with the Postal
Outsourcing                                               Service’s plan to outsource the
                                                          processing and distribution operations
                                                          of the BMC network. The concept of
                                                          contracting out these operations could
                                                          have merit and may result in
                                                          significant savings for the Postal
                                                          Service. The OIG recommended the
                                                          Postal Service initiate a rigorous risk
                                                          management approach as part of the
                                                          BMC outsourcing effort.
Status Report       NO-MA-06-001      March 20, 2006      The Postal Service took an
on the                                                    incremental approach to network
Evolutionary                                              changes and made some progress in
Network                                                   their ongoing effort to streamline the
Development                                               mail processing and transportation
Initiative                                                networks. The report disclosed major
                                                          challenges management needs to
                                                          address. We made no
                                                          recommendations in this report.
                                                          Management generally agreed with
                                                          the issues discussed.




                                              10
Network Distribution Center Phase 1                                           EN-MA-10-001
 Activation


                            APPENDIX B: DETAILED ANALYSIS

Planning for NDC Phase 1 Activation

Planning for activation of the NDC initiative generally appeared adequate; however,
opportunities exist for improvement. Early in 2008, management began to consider
various internal options to re-engineer the BMC network. In Fall 2008, management
began planning how they could accomplish these operations internally, if outsourcing
was not feasible. In early February 2009, management developed a plan to implement
the NDC concept and canceled the TDSN concept. Appendix E is a timeline showing
NDC from concept development to scheduled completion of all four phases.

Management created an NDC implementation resource book to provide guidance for
headquarters and local activation teams; and employees at BMCs, P&DCs, and retail
units.

We found that management should have completed some actions in support of NDC
activation earlier in the NDC activation process.

       Management did not establish CSAs before activating Phase 1 of NDC. This
        was partially because the activation of Phase 1 progressed quickly and did not
        provide ample time to work with mailers before startup. CSAs are essential for a
        positive outcome in the NDC activation. CSAs require mail to be broken down
        by class, mail type, and destination. The use of CSAs should facilitate a more
        efficient movement of mail to downstream processing facilities and improve
        service.

       Management did not adequately plan for the reduction in workhours NDC
        activation caused. The NDC implementation resource book indicates that
        workhour savings were to be captured through overtime reductions and attrition.
        However, during the first three quarters of fiscal year (FY) 2009, standby costs
        increased significantly over the previous year at the three Phase 1 NDCs.
        During the NDC Phase 1 activation standby costs at the—

            o Springfield NDC increased from $18,000 in March 2009 to $50,000 in
              June 2009.

            o Philadelphia NDC increased from $38,000 in March 2009 to $234,000 in
              June 2009.

            o New Jersey NDC spiked in May 2009 to $97,000 and then dropped to
              $42,000 in June 2009, as noted in chart 2.




                                                11
                                      Restricted Information
Network Distribution Center Phase 1                                                                EN-MA-10-001
 Activation


                       Chart 2. Standby Costs FY 2009 (through 3rd Quarter)

                              Stand‐by Costs  at Phase 1 NDCs ‐ FY 2009
                   $250,000 

                   $200,000                                                                Springfield

                   $150,000                                                                Philadelphia

                   $100,000                                                                New Jersey

                    $50,000 
                                                                                      FY 2008
                         $‐




                Source: Postal Service Activity-Based Costing System

                Note: The vertical line indicates the average monthly standby cost during same period FY 2008 for
                Springfield. Standby costs at Philadelphia and New Jersey were minor during that period.

         Article 12 of the national agreement with the labor unions addresses excessing
         of impacted employees. Article 12 is a time-consuming process that usually
         takes between 4 and 11 months to finalize. At the Philadelphia NDC, Article 12
         actions will be effective in early September 2009, when approximately 50
         employees are to be excessed.10 If local management had started the Article 12
         process earlier in the activation process, they may have avoided excessive
         standby time. Management acknowledged there was some delay in initiating
         the Article 12 process at the Philadelphia NDC. Management also stated, in
         general, because of the short timeframe between planning and execution of the
         Phase 1 activation, management would not have been able to initiate the Article
         12 process earlier. However, for Phases 2 through 4, management are
         encouraging earlier implementation of the Article 12 process to avoid
         unnecessary standby time.

        As part of the NDC implementation resource book, management included a
         Readiness Assessment Checklist for each type of facility (for example, P&DC,
         NDC, and retail unit). Currently the checklist only requires a “yes,” “no,” or “N/A”
         response for each statement. Requiring field management to develop and
         submit specific milestones to NDC activation teams for validation before the
         scheduled activation date would provide more assurance that items are
         completed and reviewed timely.



10
  The Postal Service issued a moratorium on excessing employees until October 9, 2009, under the terms of the
August 2009 buyout agreement between the Postal Service, the American Postal Workers Union, and the National
Postal Mail Handlers Union.


                                                       12
Network Distribution Center Phase 1                                                                     EN-MA-10-001
 Activation


There was an absence of established guidance because of the uniqueness of this
project and the accelerated rate at which it was being implemented. More specific
milestones in the planning document and earlier completion of CSAs and Article 12
would help reduce the possibility of missed or delayed savings.

Execution of NDC Phase 1 Activation

The execution of Phase 1 of the NDC activation went well and appeared to have had
only minor problems. Therefore, management accelerated the activation.

Implementation of the NDC concept began in mid-May 2009. The original startup was
scheduled for mid-April but was delayed because program changes to retail system
labels were needed.11 On June 19, 2009, after the first 5 weeks of the scheduled 12-
week activation, management expedited the remainder of Phase 1 and completed the
activation in 9 weeks. Phase 1 was completed on July 17, 2009, rather than on the
original planned date of August 7, 2009.12 Management based this acceleration on the
success of the first 5 weeks of activation and the opportunity to capture additional
savings more quickly.

NDC activation teams consisted of headquarters and local team members. Team
members were assigned to each P&DC and NDC. Teams were not assigned to retail
units or mailers’ facilities although employees at retail units were to receive training on
their responsibilities in relation to NDC activation.

Activation teams documented issues and problems noted at each activation site and
recorded the data daily in a web-based NDC Activation Daily Reporting Log.
Management conducted a daily teleconference with Phase 1 participants to resolve the
issues noted the previous day. The log for Phase 1 activation (May 18 through July 17,
2009) indicated there were 901 issues. Table 1 shows the issues broken down by
area.

                             Table 1. NDC Phase 1 Activation Issues
                                                       Number of
                                     Area
                                                    Logged Issues
                            Eastern Area                  257
                            New York Metro Area           217
                            Northeast Area                427
                                     Total                901
                           Source: NDC Activation Daily Reporting Log




11
   New retail distribution codes will be printed on Postal Service owned retail system labels to assist in separating
mail received over the retail counter into containers for dispatch to plants and NDCs. Level 18 and above post
offices, stations, and branches will use the retail distribution codes to separate the mail.
12
   Phases 2 through 4 of the NDC activation were scheduled for implementation from August 10 through November
20, 2009.


                                                         13
Network Distribution Center Phase 1                                              EN-MA-10-001
 Activation


The major issues fell into three categories: mail processing, platform operations, and
retail. Some of the major issues included:

       Separations were not performed.

       Mail transport equipment (MTE) labeler placards were not attached to
        containers or placards were modified.

       Mailers were not making separations because CSAs had not been established.

       During the final week of activation, New Jersey NDC management advised they
        did not have enough drivers. During the last 2 days, there was a backlog of 80
        to 100 trucks. The lack of drivers was due to retirements, unexpected personnel
        changes, and administrative delays. Management advised later they had hired
        casual drivers to drive the trucks during this transition period.

Management used an incremental approach to activating NDCs and engaged
leadership at all levels in the process. There was no specific guidance for changes
that might be needed as the activation moved forward, but we noted the following:

     Activation teams were in place to resolve issues as they occurred.

     Findings and observations were to be communicated to facility coordinators
      daily so management could identify best practices and potential difficulties for
      other sites to consider during activation.

During Phase 1 of NDC activation, management exercised agility to address issues as
they occurred and was effective in making required changes.

Impacts Associated with NDC Phase I Activation
The Postal Service took positive steps to re-engineer and transform BMCs into NDCs.
Management developed and implemented strategies that helped the Postal Service
achieve some operational improvements during Phase 1 activation. New operational
instructions designed to increase operational efficiency and reduce costs include, but
are not limited to—

       Improving Dock Operations and Yard Management – All vehicles go directly to
        the dock door for live loads and unloads of mail to meet distribution and dispatch
        plans. The new standard cycle time to load or unload is 30 minutes or less,
        which is a significant departure from past practice.
       Increasing Utilization of Trailers – Currently, more than 50 percent of trailer
        space is unused, resulting in inefficient cube utilization. The Postal Service
        recognized that it needed to change the way it transports mail. As a result,
        management is testing new commercially available MTE alternatives. In
        addition, new trailer load plan directives to maximize space utilization were


                                             14
Network Distribution Center Phase 1                                                                    EN-MA-10-001
 Activation


           issued to NDC Phase 1 activation facilities. Further, mail handlers and clerks
           are required to use a hand-held device to scan trailer and container information
           during live loads and unloads to capture real-time data into the Surface Visibility
           (SV) system. Management uses SV data to track trailer utilization and contents
           and provide information on trailers entering or leaving a facility.




              Today’s NDC – utilization of floor space                 Future NDC – maximize cube space



          Streamlining Network Transportation – The New Jersey NDC, a Tier 2 site, is
           now the consolidation point for the Philadelphia and Springfield NDCs (Tier 1
           sites) for transporting mail to other NDCs in the network.

                o Before Phase 1 activation, the New Jersey, Springfield, and Philadelphia
                  BMCs each had their own contracted transportation to all of the other 20
                  BMCs in the network.

                o Under Phase 1 of the NDC activation, the Springfield and Philadelphia
                  NDCs transport mail to one facility, the New Jersey NDC. This eliminates
                  trips to and from 19 facilities for the Springfield and Philadelphia NDCs.

                Chart 3 shows how transportation flowed under the BMC network and how it
                flows between NDC Tier 1 and Tier 2 sites.13

                Chart 3. BMC Network and NDC Network after Phase 1 Activation

                                  BMC                                                 PHL
                                                BMC                                  NDC
                                                                                    (Tier 1)




                                                                           NJ                  Other
                            BMC                       BMC                                      NDCs
                                                                          NDC
                                                                         (Tier 2)




                                                                                     SPR
                                  BMC           BMC                                  NDC
                                                                                    (Tier 1)




          Realigning Mail Processing Workhours – Because of the NDC activation, Phase
           1 management was required to adjust staffing requirements. At Tier 1 NDCs,
           there was a need to reduce staff and corresponding workhours because of
           network mail volume moving to the Tier 2 NDC. The Tier 2 NDC may require an
           increase in staff and workhours to accommodate the new network volume from

13
     Implementation of the Tier 3 sites was not scheduled to occur until Phase 2 of the activation.




                                                            15
Network Distribution Center Phase 1                                                            EN-MA-10-001
 Activation


         Tier 1 NDCs. Table 2 shows that although mail processing (Function 1)
         workhours fluctuated, workhours generally decreased at the three NDCs since
         the beginning of calendar year 2009.

                        Table 2. Mail Processing (Function 1) Workhours
                              NEW JERSEYNDC               PHILADELPHIA NDC         SPRINGFIELDNDC

                             Function 1    Percent        Function 1    Percent   Function 1   Percent
        PAYROLL MONTH        Workhours     Change         Workhours     Change    Workhours    Change
    04 - ended 01/16/2009     214,872.91       -17          78,401.36       -13    93,780.22       -19

    05 - ended 02/13/2009     222,131.41         3          81,085.56         3    94,584.05         1

    06 - ended 03/13/2009     213,768.48        -4          76,474.67        -6    92,356.76        -2

    07 - ended 04/10/2009     221,878.52         4          77,316.82         1    92,051.89         0

    08 - ended 05/08/2009     213,188.92        -4          74,982.06        -3    87,544.48        -5

    09 - ended 06/05/2009     210,568.68        -1          69,459.19        -7    81,570.42        -7

    10 - ended 07/03/2009     223,973.68         6          71,372.21         3    76,844.16        -6

    11 - ended 07/31/2009     226,503.59         1          69,106.58        -3    69,727.41        -9
             Cumulative Change                 -12                          -23                    -40
    Source: Postal Service Operations Complement Management


        Improving Package Service Performance –Package Service scores are
         improving, but we were unable to assess service impacts for other classes of
         mail processed through NDC sites. Although we could not directly attribute the
         improved Package Service performance to NDC activation, Table 3 shows the
         Package Service performance trend.

              Table 3. Package Service Performance Scores for Phase 1 NDCs




                 Source: Postal Service Network Development and Support




                                                     16
Network Distribution Center Phase 1                                                                   EN-MA-10-001
 Activation


           We also compared the May 9, 2009, average composite Package Service
           performance scores (1 week before the Phase 1 activation) through the week of
           July 18, 2009. We found that the average composite scores14 for the Phase 1
           NDCs improved by 20.91 percent. Management stated they were unable to
           provide service scores for other classes of mail supported by NDCs, because
           until Intelligent Mail barcoding is fully implemented, there are no good data
           measurement systems for Standard Mail and Periodicals.

Although operational impacts were mostly positive, we found that as of July 31, 2009—

          The Philadelphia NDC standby hours as a percentage of function 1 workhours
           were significantly higher than other Phase 1 NDCs and the nationwide NDC
           average. (See table 4.) As the activation of Phase 1 advanced, standby hours
           at the Philadelphia NDC increased.

               Table 4. Standby Hours as a Percentage of Function 1 Workhours
                                       NEW JERSEY          PHILADELPHIA         SPRINGFIELD     NATIONWIDE
                                           NDC                  NDC                 NDC            NDCs
              PAYROLL MONTH            (Percentage)         (Percentage)        (Percentage)    (Percentage)
            04 - ended 01/16/2009                    0                    0                 1             0.2

            05 - ended 02/13/2009                    0                    0                 1             0.1

            06 - ended 03/13/2009                    0                    1                 1             0.4

            07 - ended 04/10/2009                    0                    2                 1             0.7

            08 - ended 05/08/2009                    1                    3                 1             1.0

            09 - ended 06/05/2009                    1                    5                 2             1.3

            10 - ended 07/03/2009                    0                   10                 2             1.4

            11 - ended 07/31/2009                    0                   14                 1             1.6
           Source: Postal Service Operations Complement Management

          As shown in table 5, the annualized costs of additional HCR exceeded
           reductions of the same by $12.9 million. On September 15, 2009, management
           provided documentation to show that the projected annualized cost avoidance
           from cancelling rail contracts as of July 31, 2009, was $13.7 million; thereby,
           netting a projected transportation savings of $800,000 annually.

                Table 5. Projected Annualized HCR Costs as of July 31, 2009
                                                                ESTIMATED
                                               HCR                                   TOTAL
                                                                  FUEL
                       Reductions          ($30,859,113)        ($11,358,004)       ($42,217,117)

                       Additions              40,695,965          14,472,966          55,169,931

                       Net Change              9,837,852           3,114,963          12,952,815
                      Source: Postal Service Finance and Business Analysis


14
     The combined originating and destinating service score.


                                                           17
Network Distribution Center Phase 1                                                               EN-MA-10-001
 Activation



         In addition, management stated that establishing CSAs with mailers continues to
          be a challenge. As illustrated in Table 6, of the 250 mailers identified, 43
          mailers (17 percent) have signed CSAs as of July 8, 2009. Management added
          that mailers are resistant to CSAs, because they are waiting for the Domestic
          Mail Manual (DMM) to direct business mailing standard changes. However,
          there is a moratorium on any changes to the DMM. Faced with these
          challenges, management has formed MTAC workgroup #131 to evaluate issues
          regarding communicating what separations are necessary and why, as well as
          industry capabilities.

                  Table 6. CSA Results for Phase 1 NDCs as of July 8, 2009
                                                  CSA                 Expected   Expected       Expected
                        Mailers      CSA In                   CSA
            NDC                                Separations             CSA by     CSA by         CSA by
                       Identified   Progress                 Signed
                                                  Made                  July      August       September
        Springfield       116         19           16         16        19          25            25

        Philadelphia      53          47           35         23        13          11             0

        New Jersey        81          25           15          4         9          2             10

        Total             250         91           66          43       41          38            35
        Source: Postal Service Area Offices through the Network Development and Support Team



Issues and Risks Associated with NDC Phase I Activation

During our review of TDSN Risk Mitigation, we identified 12 risks associated with the
Postal Service’s BMC outsourcing initiative. Six of the identified risks also apply to the
NDC initiative, and management has taken action to mitigate these risks. These risks
are as follows: political risks, cost factor analysis, aggressive implementation date,
revenue at risk, stakeholder interest (communications), and internal control and quality
assurance.

During our review of NDC activation, we identified an additional four risks associated
with the NDC initiative. These four risks are as follows: customer service agreements,
goodwill/branding, network streamlining, and coordination with other initiatives.

We recognize that management may address some of these issues as the initiative
progresses. Although it may be difficult for management to successfully mitigate all of
the identified risks, we believe they should be attentive to them and to our concerns as
they proceed with this initiative. See Appendix F for details of the 10 risks.




                                                        18
Network Distribution Center Phase 1                                                                                                   EN-MA-10-001
 Activation


                            APPENDIX C: NDC NETWORK FLOW AND DESCRIPTION OF RESPONSIBILITIES




                                          Network Flow
                                         Origin P&DC
                  Retail
                                                       Local and Network
                                                                                            NDC – Tier 1


                Commercial
                Customers


                                                                                    Cross Dock
                                                                                    Network Mail




                  Retail                 Origin P&DC


                                                          Local and Network
                                                                                                                  NDC – Tier 2
                Commercial                                                                                        (Also performs
                Customers                                                                                         Tier 1 functions)



                                                                                                   Less Than Truckload
                                                                                                   Volume


                   Retail              Origin P&DC


                                                                Local and Network

                 Commercial
                 Customers
                                                                                                              NDC – Tier 3
                                                                                                              (Also performs Tier 1
                                                                                                              and 2 functions)




                                                                    19
Network Distribution Center Phase 1                                                                           EN-MA-10-001
 Activation



                                           Description of Responsibilities
                                                                                      Tier 3 NDC 

                                                                              Consolidation points for less
                                                                              than truckload volumes from
                                                                              Tier 2 NDCs
                                                        Tier 2 NDC 
                                                Surface Transfer Center       Surface Transfer Center
                                                containerization and          containerization and
                                                dispatch                      dispatch
                                                  
                                                Distribution of outgoing      Distribution of outgoing
                                                Standard Mail, Periodicals,   Standard Mail, Periodicals,
                                                and Package Services for      and Package Services for
                                                the network                   the network
                             Tier 1 NDC 
                   Distribution of local and    Distribution of local and     Distribution of local and
                   destination Standard Mail,   destination Standard Mail,    destination Standard Mail,
                   Periodicals, and Package     Periodicals, and Package      Periodicals, and Package
                   Services                     Services                      Services




                                                             20
Network Distribution Center Phase 1                                                                                    EN-MA-10-001
 Activation


                                                   APPENDIX D: NDC PHASE 1 ACTIVATION



                                 NETWORK DISTRIBUTION CENTER ACTIVATION
                                                PHASE 1
                                                              Springfield NDC
                                           Albany, NY P&DC
                                           Boston, MA P&DC
                                           Brockton, MA P&DF
                                           Burlington, VT P&DF
                                           Cape Cod, MA P&DF
                                           Central Mass, MA P&DC
                                           Eastern Maine, ME P&DF
                                           Hartford, CT P&DC
                                           Manchester, NH P&DC
                                           Middlesex-Essex, MA P&DC
                                           Plattsburgh, NY P&DF
                                           Portland, ME P&DC
                                           Portsmouth, NH P&DF
                                           Providence, RI P&DC
                                           Southern CT P&DF
                                           Springfield, MA P&DC                      New Jersey NDC
                                           White River Junction, VT P&DC

                                                                                         Brooklyn, NY P&DC
                       Philadelphia NDC                                                  Dominick V Daniels, NJ P&DC
                                                                                         Kilmer, NJ P&DC
                                                                                         Mid-Hudson, NY P&DC
                      Binghamton, NY P&DF                                                Mid-Island, NY P&DC
                      Delaware , DE P&DC                                                 Morgan Station, NY P&DC
                      Harrisburg, PA P&DC                                                NNJ Metro, NJ P&DC
                      Lancaster, PA P&DC                                                 Queens, NY P&DC
                      Lehigh Valley, PA P&DC                                             Stamford, CT P&DC
                      Philadelphia, PA P&DC                                              Staten Island, NY P&DC
                      Reading, PA P&DF                                                   Trenton, NJ P&DC
                      Scranton, PA P&DF                                                  Western Nassau, NY P&DC
                      South Jersey, NJ P&DC                                              Westchester, NY P&DC
                      Southeastern, PA P&DC
                      Wilkes Barre, PA P&DC
                      Williamsport, PA P&DF




                                                                                21
Network Distribution Center Phase 1                                                 EN-MA-10-001
 Activation


                                                    APPENDIX E
                            NDC TIMELINE (FROM CONCEPT DEVELOPMENT TO COMPLETION)




                                                     22
Network Distribution Center Phase 1                                                                                                                                            EN-MA-10-001
 Activation


                                                                        APPENDIX F: TEN IDENTIFIED RISKS



                                                                                                                                    Risk Assessment Summary
                               Risk Identified                      Risk Description
                                                                                                                            Impact                                Vulnerability
                                                                                                                 Potential loss of revenue.               Mailers could decide implementing
                                                                                                                 Potential service delays.                 CSAs is too costly.
                                                                                                                 Could result in additional work at       Mailers may not agree to this
                               Customer Supplier         Delays in obtaining agreements with mailers to           processing facilities or mail being       arrangement. (Medium)
                               Agreements                separate mail for routing to appropriate facility.       sent to wrong tier facility.
                                                                                                                 Potential unrealized transportation
 Four Newly Identified Risks




                                                                                                                  savings. (High)



                                                                                                                 Lower productivity rates.                Facilities may be unable to reduce
                                                                                                                 Higher standby time and costs.            workhours expeditiously because of
                                                                                                                  (High)                                    the Article 12 process.
                                                         Initiative may not provide the savings
                               Network Streamlining                                                                                                        Transportation efficiencies may be
                                                         anticipated or needed.
                                                                                                                                                            negatively affected if CSAs are not
                                                                                                                                                            implemented quickly. (High)



                                                                                                                 Loss of goodwill.                        The Postal Service could be open
                                                         Customers may perceive the Postal Service as            Loss of loyalty. (Medium)                 to negative stakeholder perceptions
                                                                                                                                                            and destroy trust. (Medium)
                               Goodwill                  being inept at operating the organization if this
                                                         initiative falters.




                                                         Too many initiatives ongoing to adequately              Higher costs.                            Stakeholder resistance to a large
                                                         coordinate and measure results. These                   Lower productivity.                       number of changes at one time.
                                                         initiatives include:                                    Potential loss of goodwill.               (Medium)
                                                              New MTE being tested.                             May cause delays in service.
                               Coordination with Other        Use of SV.                                        Difficulty in accurately tracking
                               Initiatives                    Merging STCs with NDCs.                            costs and savings. (Medium)
                                                              Movement of mail from Logistics &
                                                               Distribution Center (Philadelphia) to NDC.
                                                              Installation and activation of FSS.




                                                                                                       23
Network Distribution Center Phase 1                                                                                                                                                     EN-MA-10-001
 Activation



                                                                                                                                            Risk Assessment Summary
                                   Risk Identified                            Risk Description
                                                                                                                                     Impact                                Vulnerability
                                                                                                                          Failure to convince and work             Resistance to Postal Service
                                                                                                                           effectively with Congress and the         efforts. (High)
                                                                                                                           Postal Regulatory Commission
                                                                  Ability to effectively convince legislators of the
                                                                                                                           could result in undesirable
                                                                  necessity for specific network realignment
                                   Political Risks                                                                         legislation and/or regulatory
                                                                  strategies and operational efficiency initiatives,
                                                                                                                           constraints that could be harmful
                                                                  including transformation of the NDC network.
 Six Previously Identified Risks




                                                                                                                           to the network realignment
                                                                                                                           strategies and operational
                                                                                                                           efficiency. (High-Critical)


                                                                   Consider all cost factors affecting projected          Inadequate data may distort              Without adequate data, the potential
                                                                   cost savings, including transitioning of affected       results of analysis, possibly             for making a flawed decision
                                                                   employees, costs associated with                        leading to incorrect decisions.           increases substantially. (Medium)
                                   Cost Factor Analysis            transformation of the NDC facilities for future         (High-Critical)
                                                                   use, and costs associated with revising ground
                                                                   transportation contracts for current NDC
                                                                   transportation routes.


                                                                  Ability to implement concept at a large number          May cause delays in service              Facilities may be unable to handle
                                                                  of facilities in a shortened timeframe without          May result in higher standby time         increases in mail volume.
                                   Aggressive Implementation
                                                                  adversely affecting service and operations               and lower productivity rates.            Facilities may be unable to reduce
                                   Date
                                                                  when some benefits associated with the project           (High)                                    the number of employees at some
                                                                  have not yet been demonstrated.                                                                    sites quickly. (High)


                                                                   Revenue at risk due to large dollar exposure in        Potential loss of revenue. (High)        Mail flow to customers could be
                                   Revenue at Risk
                                                                   this initiative.                                                                                  interrupted. (High)


                                                                                                                          Providing stakeholders with late or      Stakeholders have applied pressure
                                                                                                                           inadequate notice of significant          in previous efforts to optimize the
                                                                   Ensure interests of impacted stakeholders are
                                   Stakeholder Interest                                                                    changes increases the risk that           mail processing network, which has
                                                                   identified clearly and changes impacting them
                                   (Communications)                                                                        pressure from them could disrupt          resulted in cancellation or
                                                                   are communicated effectively.
                                                                                                                           the Postal Service’s efforts.             postponement of those efforts.
                                                                                                                           (High)                                    (High)


                                                                  Establish controls and a quality assurance              Potential loss of revenue. (High)        If controls are in place and ready to
                                   Internal Control and Quality
                                                                  process that effectively protects the integrity of                                                 implement before activating NDCs,
                                   Assurance
                                                                  the initiative and revenue.                                                                        risks should be reduced. (Medium)




                                                                                                                  24
Network Distribution Center Phase 1                        EN-MA-10-001
 Activation


                       APPENDIX G: MANAGEMENT’S COMMENTS




                                      25
Network Distribution Center Phase 1        EN-MA-10-001
 Activation




                                      26
Network Distribution Center Phase 1        EN-MA-10-001
 Activation




                                      27
Network Distribution Center Phase 1        EN-MA-10-001
 Activation




                                      28
Network Distribution Center Phase 1        EN-MA-10-001
 Activation




                                      29
Network Distribution Center Phase 1        EN-MA-10-001
 Activation




                                      30
